APPENDICES

A. APPENDIX: Brooks v. Jordan, 2020 U.S.App.LEXIS
18078; Case No. 20-5075
B.APPENDIX: 2019 U.S.DIST.LEXIS 217455; 5:18CV-196-TBR
C.APPENDIX: 2018 KyJLEXIS 578; 2018-SC-389-D
D.APPENDIX: 2018 Ky.App.Unpub.LEXIS 269;
Kentucky Court of Appeals No. 2017-CA-493-MR
E. APPENDIX: Brooks v. Com., 97CR00284-002

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Deborah S. Hunt
Clerk

100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Tel. (513) 564-7000
wvyw.ca6.uscourts.gov

Filed: October 09, 2020

Mr. Jason Lamont Brooks
Luther Luckett Correctional Complex
P.O. Box 6
LaGrange, KY 40031
Re: Case No. 20-5075, Jason Brooks v. Amy Robey
Originating Case No.: 5:18-cv-00196
Dear Mr. Brooks,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Beverly L. Harris
En Banc Coordinator
Direct Dial No. 513-564-7077

Enclosure

Case: 20-5075

Document: 15-2

Filed: 06/08/2020

Page: 1

(2 of 5)

No. 20-5075
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

JASON LAMONT BROOKS,
Petitioner-Appellant,
v.

SCOTT JORDAN, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)

Jun 08, 2020
DEBORAH S. HUNT, Clerk
ORDER

Before: SUTTON, Circuit Judge.

Jason Lamont Brooks, a Kentucky prisoner proceeding pro se, appeals the district court’s
judgment denying his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. Brooks
has filed an application for a certificate of appealability (“COA”). See Fed. R. App. P. 22(b). He
has also filed a motion to proceed in forma pauperis on appeal, see Fed. R. App. P. 24(a)(5), and
a motion for appointment of counsel.
In October 1997, the McCracken County (Kentucky) Grand Jury indicted Brooks on one
count each of capital murder and first-degree robbery. Brooks was a juvenile at the time of the
commission of the offenses. Brooks pleaded guilty to both charges pursuant to an agreement with
the Commonwealth and, in accordance with the terms of that agreement, received a sentence of
life imprisonment with parole eligibility after twelve years. The trial court entered Brooks’s
judgment of conviction and sentence on December 21, 1998, and Brooks did not appeal. After
serving twelve years in prison, Brooks met with the parole board in 2009, which denied him parole.
See Brooks v. Commonwealth, No. 2019-CA-000563-MR, 2020 WL 1231698, at *1 (Ky. Ct. App.
Mar. 13, 2020). According to Brooks, the parole board deferred his next parole hearing until 2021.
Brooks thereafter filed several unsuccessful state post-conviction motions. Specifically, in
April 2015, Brooks filed a “Motion for Resentencing” under Rule 60.02 of the Kentucky Rules of

Case: 20-5075

Document: 15-2

Filed: 06/08/2020

Page: 2

No. 20-5075
-2Civil Procedure and Rule 10.26 of the Kentucky Rules of Criminal Procedure, alleging that his
sentence was illegal. The trial court denied that motion and Brooks did not appeal.
In January 2017, Brooks filed a “Motion to Vacate, Set Aside or Correct Sentence” under
Rule 11.42(10)(b) of the Kentucky Rules of Criminal Procedure, arguing that his sentence should
be set aside because he had not been afforded a meaningful opportunity to be released on parole.
Brooks’s motion relied on the United States Supreme Court’s decisions in Graham v. Florida, 560
U.S. 48 (2010); Miller v. Alabama, 567 U.S. 460 (2012); and Montgomery v. Louisiana, 136 S. Ct.
718 (2016). The trial court denied Brooks’s motion, and the Kentucky Court of Appeals affirmed.
Brooks v. Commonwealth, No. 2017-CA-000493-MR, 2018 WL 2078011, at *3 (Ky. Ct. App.
May 4, 2018).
In November 2018—approximately one month before Brooks initiated this federal habeas
proceeding—Brooks filed another Rule 60.02 motion, in which he relied on the same three
Supreme Court decisions to argue that the final judgment in his case was void for lack of a
meaningful sentencing procedure. The trial court denied that motion and the Kentucky Court of
Appeals affirmed. Brooks, 2020 WL 1231698, at *3.
In December 2018, Brooks filed a § 2254 petition, which he later amended, arguing that
his life sentence violates his Eighth Amendment right to be free from cruel and unusual
punishment. Upon preliminary review, the magistrate judge ordered Brooks to show cause why
his petition should not be denied as untimely. Brooks complied with the show-cause order, but
the magistrate judge rejected Brooks’s timeliness arguments and recommended that the district
court deny the habeas petition as untimely. Over Brooks’s objections, the district court adopted
the magistrate judge’s report and recommendation, denied Brooks’s habeas petition, and declined
to issue a COA.
Brooks now seeks a COA from this court on his Eighth Amendment claim. A COA may
issue “only if the applicant has made a substantial showing of the denial of a constitutional right.”
28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). Where, as here, the
district court denies a habeas petition on procedural grounds, the petitioner must show “at least,

(3 of 5)

Case: 20-5075

Document: 15-2

Filed: 06/08/2020

Page: 3

No. 20-5075
-3 that jurists of reason would find it debatable whether the petition states a valid claim of the denial
of a constitutional right and that jurists of reason would find it debatable whether the district court
was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
The Antiterrorism and Effective Death Penalty Act (“AEDPA”) imposes a one-year statute
of limitations on § 2254 petitions. 28 U.S.C. § 2244(d)(1). Generally, the limitations period
begins to run on the date on which the petitioner’s judgment of conviction becomes “final by the
conclusion of direct review or the expiration of the time for seeking such review.”
§ 2244(d)(1)(A). The trial court sentenced Brooks on December 21, 1998, after which Brooks had
thirty days to file a notice of appeal. See Ky. R. Crim. P. 12.04(3). Brooks did not appeal, and his
conviction and sentence became final on January 20, 1999.

The limitations period under

§ 2244(d)(1) began running the following day and expired one year later, on January 21, 2000.
Brooks did not file his habeas petition until December 2018, long after the expiration of the
limitations period. Moreover, Brooks was not entitled to statutory tolling under 28 U.S.C.
§ 2244(d)(2) because he did not file his state post-conviction motions until after AEDPA’s
limitations period had already run. See Vroman v. Brigano, 346 F.3d 598, 602 (6th Cir. 2003).
Brooks argued that his habeas petition was timely because the one-year limitations period
did not commence until the Supreme Court decided Montgomery, which rendered Miller
retroactively applicable to cases on collateral review. Under 28 U.S.C. § 2244(d)(1)(C), the oneyear limitations period commences on “the date on which the constitutional right asserted was
initially recognized by the Supreme Court, if the right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on collateral review.” But under this subsection,
the limitations period would have commenced when Miller was decided, not when Montgomery
made Miller retroactively applicable to cases on collateral review. See Dodd v. United States, 545
U.S. 353, 358-59 (2005). Even if the limitations period did not begin to run until June 25, 2012—
the date that Miller was decided—the limitations period expired one year later, on June 25, 2013,
thus rendering Brooks’s habeas petition untimely as he would still not be entitled to statutory

(4 of 5)

Case: 20-5075

Document: 15-2

Filed: 06/08/2020

Page: 4

No. 20-5075
-4tolling.

Considering the foregoing, reasonable jurists could not debate the district court’s

procedural ruling that Brooks’s habeas petition was time-barred.
The AEDPA’s one-year limitations period is subject to equitable tolling if a petitioner
“shows ‘(1) that he has been pursuing his rights diligently, and (2) that some extraordinary
circumstance stood in his way’ and prevented timely filing.” Holland v. Florida, 560 U.S. 631,
649 (2010) (quoting Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005)). Brooks did not pursue his
rights diligently, as he waited nearly three years after the Supreme Court decided Miller to file his
first state post-conviction motion challenging his sentence. He also waited over six years after
Miller was decided to file his federal habeas petition. Brooks argues that his pro-se status is an
extraordinary circumstance that prevented him from filing a timely habeas petition. But the fact
that Brooks was required to seek federal habeas relief pro se is not an adequate ground for equitable
tolling. See Keeling v. Warden, Lebanon Corr. Inst., 673 F.3d 452, 464 (6th Cir. 2012). Brooks’s
equitable-tolling arguments do not deserve encouragement to proceed further. See Miller-El, 537
U.S. at 327.
Finally, a petitioner can overcome a time-bar by showing “that failure to consider [his]
claims will result in a fundamental miscarriage of justice,” Coleman v. Thompson, 501 U.S. 722,
750 (1991), but this requires a petitioner to make a “convincing showing” of actual innocence,
McQuiggin v. Perkins, 569 U.S. 383, 386 (2013). Brooks did not convincingly show—or even
allege—that he was actually innocent of murder or robbery.
Accordingly, Brooks’s CO A application is DENIED, and his motions for pauper status
and for appointment of counsel are DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(5 of 5)

No. 20-5075
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JASON LAMONT BROOKS,

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.

SCOTT JORDAN, WARDEN,
Respondent-Appellee.

FILED
Oct 09, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: ROGERS, NALBANDIAN, and MURPHY, Circuit Judges.

Jason Lamont Brooks petitions for rehearing en banc of this court’s order entered on June
8, 2020, denying his application for a certificate of appealability. The petition was initially referred
to this panel, on which the original deciding judge does not sit. After review of the petition, this
panel issued an order announcing its conclusion that the original application was properly denied.
The petition was then circulated to all active members of the court, none of whom requested a
vote on the suggestion for an en banc rehearing. Pursuant to established court procedures, the
panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

* 20-5075
♦

Mr. Jason Lamont Brooks
#138036
Luther Luckett Correctional Complex
P.O. Box 6
LaGrange, KY 40031

Case 5:18-cv-00196-TBR-LLK Document 26 Filed 12/18/19 Page 1 of 5 PagelD #: 243

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
PADUCAH DIVISION
CIVIL ACTION NO. 5:18-CV-196-TBR-LLK
JASON LAMONT BROOKS

PETITIONER

V.
SCOTT JORDAN, Warden

RESPONDENT

MEMORANDUM OPINION AND ORDER
This matter is before the Court upon Magistrate Judge King’s Findings, Conclusions, and
Recommendations (“Recommendations”) (DN 19) issued on October 1, 2019. The Magistrate
Judge recommends that the Court deny as untimely Mr. Brooks’s Petition and amendment to
petition for writ of habeas corpus pursuant to 28 U.S.C. § 2254 (DN 1; DN 11), deny Petitioner’s
motion to stay and hold in abeyance (DN 13), and deny a certificate of appealability. Mr. Brooks
filed Objections (DN 25) to the Recommendations. Upon review of the Recommendations,
Objections, relevant law, and being otherwise sufficiently advised, the Court HEREBY ADOPTS
the Magistrate’s Recommendations (DN 19). The reasoning expressed in the Recommendations is
sound and the Court adopts those Recommendations in full. This Opinion merely addresses some
of Mr. Brooks’s Objections to those Recommendations.
Mr. Brooks’s Petition is time barred.1 In relevant part, 28 U.S.C. § 2244(d)(1) provides:
A 1-year period of limitation shall apply to an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State court. The
limitation shall run from the latest of - (A) the date on which the judgment became
final by the conclusion of direct review or the expiration of the time for seeking
such review; . . . [or] (c) the date on which the constitutional right asserted was
initially recognized by the Supreme Court, if the right has been newly recognized

For a recitation of the facts, see (DN 19).

Case 5:18ipv-00196-TBR-LLK Document 26 Filed 12/18/19 Page 3 of 5 PagelD #: 245

In this case, the state court has not granted Petitioner the right to file an out-of-time direct
appeal. Instead, Petitioner’s judgment became final pursuant to 28 U.S.C. § 2244(d)(1) on January
21, 1999 when Petitioner’s time to appeal his conviction lapsed. Because Petitioner filed the
Petition before this Court on December 28, 2018, his Petitioner is untimely.
Mr. Brooks also objects to Magistrate Judge King’s finding that his Petition is time barred
pursuant to § 2244(d)(1)(C). § 2244(d)(1)(C) sets the. beginning of the one-year period of
limitations at “the date on which the constitutional right asserted was initially recognized by the
Supreme Court, if the right has been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review.” Petitioner’s claim is premised upon three
related Supreme Court cases: Graham v. Florida, 560 U.S. 48 (2010); Miller v. Alabama, 567 U.S.
460 (2012); and Montgomery v. Louisiana, 136 S.Ct. 718 (2016). Judge King correctly summarizes
these three cases as follows:
Graham v. Florida held that the Eighth Amendment bars juvenile offenders from
being sentenced to life without the possibility of parole (LWOP) for a non-homicide
crime. . . . Miller v. Alabama held that mandatory LWOP sentences for juvenile
homicide offenders violate the Eighth Amendment. . . . Montgomery v. Louisiana
held that Miller applies retroactively on collateral review because it announced a
new substantive rule of constitutional law.
(DN 19 at 2-3) (citations omitted). Petitioner argues that the limitations petition began on January
27, 2016, when Montgomery announced that Miller applies retroactively. As Judge King correctly
identifies, however, the limitations period begins to run when the constitutional right is first
recognized and not when the right is announced to be retroactive. In a recent opinion, the District
Court for the Eastern District of Michigan explained:
Section 2244(d)(1)(C) indicates that the one-year limitations period can run from
“the date on which the constitutional right asserted was initially recognized by the

Case 5:18rCv-00196-TBR-LLK Document 26 Filed 12/18/19 Page 5 of 5 PagelD #: 247

IT IS FURTHER ORDERED, that a Certificate of Appealability is DENIED as to each
claim asserted in the Petition and amendment thereto.
IT IS SO ORDERED.

Thomas B. Russell, Senior Judge
United States District Court
December 18, 2019

CC:

CC:

Jason Lamont Brooks
138036
LUTHER LUCKETT CORRECTIONAL COMPLEX
P.O. Box 6
LaGrange, KY 40031
PROSE
Counsel of Record

Case 5:18-cv-00196-TBR-LLK Document 27 Filed 12/18/19 Page 1 of 1 PagelD #: 248

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
PADUCAH DIVISION
CIVIL ACTION NO. 5:18-CV-196-TBR-LLK
PETITIONER

JASON LAMONT BROOKS
V.

RESPONDENT

SCOTT JORDAN, Warden
JUDGMENT

In accordance with the Order of the Court, it is hereby ORDERED AND ADJUDGED as
follows:
(1) Petitioner’s petition and amendment to petition for writ of habeas corpus pursuant to 28
U.S.C. § 2254 (DN 1; DN 11) are DISMISSED with prejudice, and judgment is entered in
favor of respondent;
(2) A Certificate of Appealability is DENIED; and
(3) This is a FINAL judgment and the matter is STRICKEN from the active docket of the
Court.
IT IS SO ORDERED.

Thomas B. Russell, Senior Judge
United States District Court
December 18, 2019

CC:

CC:

Jason Lamont Brooks
138036
LUTHER LUCKETT CORRECTIONAL COMPLEX
P.O. Box 6
LaGrange, KY 40031
PROSE
Counsel of Record

jSupranr Court of l&enfurkg
2018-SC-000389-D
(2017-CA-000493)

JASON LAMONT BROOKS

V.

MOVANT

McCracken circuit court
1997-CR-00284

COMMONWEALTH OF KENTUCKY

RESPONDENT

ORDER DENYING DISCRETIONARY REVIEW
The motion for review of the decision of the Court of Appeals is
denied.
ENTERED: December 5, 2018.

;f JUSTICE

RENDERED: MAY 4, 2018; 10:00 A.M.
NOT TO BE PUBLISHED

Communuiealtlj af ffluentarkij
Court of Appeals
NO. 2017-CA-000493-MR
JASON LAMONT BROOKS

v.

APPELLANT

APPEAL FROM MCCRACKEN CIRCUIT COURT
HONORABLE CRAIG Z. CLYMER, JUDGE
ACTION NO. 97-CR-00284-002

COMMONWEALTH OF KENTUCKY

APPELLEE

OPINION
AFFIRMING
** ** ** ** **

BEFORE: CLAYTON, JOHNSON, AND NICKELL, JUDGES.
JOHNSON, JUDGE: Jason Lamont Brooks (“Brooks”), appearing pro se, brings
this appeal from the trial court’s Order Denying Movant’s Motion to Vacate, Set
Aside, or Correct Judgment Pursuant to Kentucky Rules of Criminal Procedure
•<r

(“RCr”) 11.42(10)(b) on February 13, 2017, subsequently amended to include
Findings of Fact and Conclusions of Law on February 28, 2017, pursuant to

Brooks’ Motion to Amend. After reviewing the record in conjunction with the
applicable legal authorities, we AFFIRM the McCracken Circuit Court.

BACKGROUND
On October 24, 1997, Brooks and a co-defendant were indicted for
Murder (Capital Offense)1 and Robbery, First-Degree2 by a McCracken County
Grand Jury. Brooks, a juvenile at the time of the offense, was transferred as a
youthful offender to circuit court on December 19, 1997, based on a district court
probable cause hearing.3 Brooks pleaded guilty to Murder, First-Degree and
Robbery, First-Degree on October 19, 1998, to a sentence of Life Imprisonment
with parole eligibility after 12 years, per his agreement with the Commonwealth.
The Final Judgment/Sentence of Imprisonment was entered on December 21,
1998, reflecting the Life Sentence but guaranteeing Brooks a parole hearing after
12 years’incarceration.
After serving the 12 years, Brooks met with the parole board on July
22, 2009. The Board denied Brooks parole.
On April 6, 2015, Brooks filed a Motion for Resentencing Pursuant to
Kentucky Rules of Civil Procedure (“CR”) 60.02 and RCr 10.26, alleging illegality

Kentucky Revised Statutes (“KRS”) 507.020.
2 KRS 515.020.
3 See KRS 635.020(4).

-2-

•

of his sentence. The trial court entered an Order Denying Brooks’ motion on April
28, 2015.
Brooks next filed a Motion to Vacate, Set Aside or Correct Sentence,
Pursuant to RCr. 11.42(10)(b) on January 23, 2017. The Commonwealth’s
Response to Movant’s Motion to Vacate, Set Aside or Correct Judgment Pursuant
to RCr. 11.42(10)(b) was filed on January 26, 2017, Brooks filed his Reply to the
Commonwealth on February 7, 2017, and the trial court denied Brooks’ motion on
February 13, 2017. The court issued Findings of Fact and Conclusions of Law,
pursuant to Brooks’ motion, on February 28, 2017.
Brooks’ appeal to us followed, alleging that he has not and will not be
afforded a meaningful opportunity to be released from his life sentence4 based on
his “demonstrated maturity and rehabilitation” and that the trial court erred by
denying Brooks’ RCr 11.42 motion without appointing counsel and conducting an
evidentiary hearing.
STANDARD OF REVIEW
In a motion brought under RCr 11.42, the movant has the
burden of establishing convincingly that he or she was
deprived of some substantial right which would justify
the extraordinary relief provided by [a] post-conviction
proceeding.... A reviewing court must always defer to
the determination of facts and witness credibility made
by the circuit judge. An RCr 11.42 motion is limited to

4 With first parole opportunity after 12 years in the penitentiary.
-3-

issues that were not and could not be raised on direct
appeal.
Skaggs v. Commonwealth, 488 S.W.3d 10, 14 (Ky. App. 2016) (internal citations
and quotations omitted).
As to the standard of review concerning the necessity of an
evidentiary hearing, an evidentiary hearing is only required “if there is a material
issue of fact that cannot be conclusively resolved, i.e., conclusively proved or
disproved, by an examination of the record.” Fraser v. Commonwealth, 59 S.W.3d
448, 452 (Ky. 2001).
ANALYSIS
Brooks’ first argument on appeal, that “he has not and will not be
afforded a meaningful opportunity to be released upon (sic) his life sentence based
on demonstrated maturity and rehabilitation” is without merit because the Board
conducted its review of Brooks’ parole eligibility and set his next Board hearing
date pursuant to established Kentucky law. Brooks cites to a spate of recent United
States Supreme Court cases modifying life without the possibility of parole
sentences for juvenile offenders. However, Brooks is not facing such a
circumstance.

'

Brooks has already faced the Board once and has another Board
hearing in his future. KRS 439.340 states, in relevant part:

-4-

(1) The board may release on parole persons confined in
any adult state penal or correctional institution of
Kentucky . . . eligible for parole. ... As soon as
practicable after his or her admission to an adult state
penal or correctional institution .. . and at such intervals
thereafter as it may determine, the Department of
Corrections shall obtain all pertinent information
regarding each prisoner, except those not eligible for
parole. The information shall include the results of his or
her most recent risk and needs assessment, his or her
criminal record, his or her conduct, employment, and the
reports of physical and mental examinations that have
been made.....
(2) Before granting the parole of any prisoner, the board
shall consider the pertinent information regarding the
prisoner, including the results of his or her most recent
risk and needs assessment, and shall have him or her
appear before it for interview and hearing.... A parole
shall be ordered only for the best interest of society and
not as an award of clemency, and it shall not be
considered a reduction of sentence or pardon. A prisoner
shall be placed on parole only when ... the board
believes he or she is able and willing to fulfill the
obligations of a law abiding citizen.

(14) If the parole board does not grant parole to a
prisoner ... [n]o deferment shall exceed ten (10) years,
except for life sentences.
Brooks was granted the opportunity to have his hearing before the
Board after serving 12 years per his agreed-upon sentence. There is no allegation
that Brooks was not permitted to present to the Board mitigating factors such as his
age at the time of the offense and the personal growth that he has experienced since

-5-

his incarceration. Despite Brooks’ recounting in his brief of the Board’s reasoning
for denial, “seriousness [of the crime], violence involved, life taken, and crime
involved firearm/deadly weapon or instrument,” we are unable to consider that
because it was not made a part of the official court record or included as an exhibit
in Brooks’ Brief and are similarly unable to consider Brooks’ contention that the
Board set his second parole hearing 144 months after his first.5 We can only find
that there are no allegations in the record that the Board made any ruling in
contravention of KRS 439.340.6 If the Board did in fact set Brooks’ next parole
hearing for 144 months after his first, such a ruling is legal pursuant to KRS
439.340(14)(b). Based on this analysis, we find that Brooks has not been denied
any “substantial right” owed to him. As our Kentucky Supreme Court has stated:
The Corrections Cabinet has developed a thorough
procedural structure whereby the Board reviews inmates’
histories to determine parole eligibility. . . . While the
statute and regulations entitle [Appellant] to review, even
a finding that certain relevant criteria have been met does
not require the Board to release him prior to the
expiration of his sentence. Nothing in the statute or the
regulations mandates the granting of parole in the first
instance, and nothing therein diminishes the discretionary
nature of the Board’s authority in such matters.

5 Brooks admits in his Brief that he neglected to file the Board’s report and it is found nowhere
else in the record now before us.
6 Even were we to take Brooks’ assertions concerning his hearing before the Board as fact, there
would be no violation of KRS 439.340.

-6-

Belcher v. Kentucky Parole Bd., 917 S.W.2d 584, 586 (Ky. 1996) (internal
v
citation omitted). In other words, the Board would be within its legal rights
to deny Brooks parole at his purported next hearing in 2021 and continue
denying him parole for the remainder of his natural life, despite any
“meaningful changes” he may or may not make. Brooks bargained for a life
sentence and whether he remains in prison for the rest of his life or is
eventually given his freedom by the Board will be purely at the Board’s
discretion.
Brooks’ second argument on appeal, that he was wrongfully denied
the appointment of counsel and an evidentiary hearing, is likewise without merit
since the trial judge rightfully concluded the allegations in Brooks’ motion could
be resolved on the face of the record. As the Kentucky Supreme Court has stated
in Fraser v. Commonwealth, 59 S.W.3d448, 452-53 (Ky. 2001):
[T]he trial judge shall determine whether the allegations
in the motion can be resolved on the face of the record, in
which event an evidentiary hearing is not required. A
hearing is required if there is a material issue of fact that
cannot be conclusively resolved, i.e., conclusively proved
or disproved, by an examination of the record.

If an evidentiary hearing is required, counsel must be
appointed to represent movant if he/she is indigent and
specifically requests such appointment in writing.

-7-

r

a,-

If an evidentiary hearing is not required, counsel need not
be appointed, because appointed counsel would [be]
confined to the record.
(Internal citations and quotations omitted.) Since all of Brooks’ contentions were
properly denied via an examination of the existing record, there was no error in the
trial court’s refusal to appoint counsel or hold an evidentiary hearing.
CONCLUSION
Based upon the following, the McCracken Circuit Court is
AFFIRMED.

ALL CONCUR.

BRIEF FOR APPELLANT:

BRIEF FOR APPELLEE:

Jason Lamont Brooks, pro se
LaGrange, Kentucky

Andy Beshear
Attorney General of Kentucky
Todd D. Ferguson
Assistant Attorney General
Frankfort, Kentucky

(

-8-

